NATIONAL OCEANIC
AND ATMOSPHERIC
ADMINISTRATION
Results of Commerce
OIG’s Online Survey of
Fishery Management
Council Members and Staff




FINAL REPORT NO. OIG-13-022-I
APRIL 5, 2013



U.S. Department of Commerce
Office of Inspector General
Office of Audit and Evaluation

FOR PUBLIC RELEASE
                                                  UNITED STATES DEPARTMENT OF COMMERCE
                                                  Office of Inspector General
                                                  Washington, D.C. 20230



April 5, 20 I 3

MEMORANDUM FOR: 	 Dr. Kathryn D. Sullivan 

                  Acting Under Secretary of Commerce for Oceans 

                                and Atmosphere · M        ~
                                                          L l-~ ~'(',~
                                                     •·           .--­


FROM:                         Ann C. Eiler         , _,
                              Principal Assistant Inspector General for Audit and Evaluation

SUBJECT: 	                    Results of Commerce DIG's Survey of Fishery Management Council
                              Members and Staff
                               Final Report No. OIG-13-022-1

Attached are the results of our online survey of Fishery Management Council (FMC) members
and staff. The purpose of the survey was to obtain an FMC perspective on fishery regulatory
requirements, rulemaking, and improvements in fisheries management. This is our second
report in response to a request from Congressmen Barney Frank and John F. Tierney to review
fisheries management at NOAA's National Marine Fisheries Service (NMFS) and at the eight
regional FMCs.

We asked FMC members and staff about interactions with NMFS and with the fishing industry
and nongovernment organizations, regulatory requirements, FMC operations and training, and
FMC compliance with the code of conduct.

In general, responses to the survey were positive. Most survey participants were satisfied with
their interactions with NMFS, as well as with the fishing industry and nongovernment
organizations. Suggestions to improve collaboration between NMFS and FMCs mainly involved
occurrence and methods of communication, participation from NOAA's Office of the General
Counsel, and outreach and transparency to stakeholders.

FMC members and staff also believed that FMCs and NMFS were complying with the
Magnuson-Stevens Fishery Conservation and Management Act and the FMC code of conduct.
Nonetheless, when asked to select the "top three problems in the fishery management plan
development and amendment processes," respondents chose complexity of the process,
timeliness, and public distrust.

Finally, less than a third of survey respondents rated FMC training as effective (most selected
"Neutral" or " Don't know" for questions regarding training). When asked about successful
practices at their FMCs, respondents cited public participation, consideration of public input,
and outreach and public education.

We thank the FMC members and staff who completed the survey. If you have any questions
about this report, please contact me at (202) 482-2754 or Andrew Katsaros at (202) 482-7859.

Attachment
                                             Report In Brief                                       APRIL 5, 2013




Background                                NATIONAL OCEANIC AND ATMOSPHERIC
We sent this survey to 292 fishery        ADMINISTRATION
management council (FMC) mem-
bers, member designees, and staff.        Results of Commerce OIG’s Online Survey of Fishery
Seventy nine percent of survey recip-     Management Council Members and Staff
ients (235 persons) responded.
                                          OIG-13-022-I
NOAA’s National Marine Fisheries
Service (NMFS) is responsible for
the management and conservation of        WHAT WE FOUND
living marine resources within the
                                          Below are highlights of the survey responses by topic.
statutorily prescribed areas in the
U.S. Exclusive Economic Zone: the         Interactions with NMFS. We asked FMC members and staff to describe the
area extending from 3 to 200 nauti-       effectiveness and frequency of verbal and written communications with NMFS
cal miles offshore. NMFS provides         and fishery management planning activities and assessed whether respondents
scientific and policy leadership in the
                                          are satisfied with NOAA’s replies to FMC inquiries on fisheries management and
international arena and plays a key
role in the management of living ma-      rulemaking. Forty-three percent rated NMFS written guidance as effective, and 6
rine resources in coastal areas under     percent rated it as ineffective. Other respondents either were neutral or said
state jurisdiction while implementing     they did not know. In addition, 70 percent of survey participants said they were
conservation and management ac-           usually satisfied with responses they had received from NMFS.
tions aimed at sustaining long-term
use and promoting the health of           Regulatory requirements. We solicited respondents’ views on compliance with the
coastal and marine ecosystems.            requirements of the Magnuson-Stevens Fishery Conservation and Management
NMFS and FMCs work together to            Act. Seventy-two percent of respondents rated the FMCs as effective, and
develop fisheries management strate-      3 percent rated the FMCs as ineffective. Also, 53 percent rated their NMFS
gies and rules for the commercial         Regional Office and Science Center as effective, and 6 percent rated them as
and recreational fishing industries.      ineffective.
In the fisheries management process,      Interactions with the fishing industry and nongovernmental organizations. We asked
FMCs partner with NMFS, state             respondents for their opinions on communication between the FMCs and
agencies, and other federal agencies.     advocacy groups. Sixty-eight percent of respondents said their region was
For the 5-year period from January        effective at reaching out to the public in the development of fishery management
2010 to December 2014, NOAA               actions, and 7 percent rated the region as ineffective.
awarded nearly $100 million in
grants and cooperative agreements         FMC operations and training. We asked respondents to evaluate whether the
to the FMCs.                              training and guidance they receive are effective and prepare them to accomplish
                                          their work. Nineteen percent of FMC members rated the NMFS regulatory
Why We Did This Review                    training program as effective, and 4 percent rated it as ineffective. When
                                          questioned about the effectiveness of training received after joining the FMC as a
The purpose of the survey was to
obtain an FMC perspective on fish-        council or staff member, 29 percent indicated that training was effective, and
ery regulatory requirements, rule-        8 percent found training ineffective.
making, and improvements in fishery       Rules of conduct, conflict of interest, and ethics. We asked respondents about
management.
                                          compliance with the rules of conduct and whether practices relating to ethical
This is our second report in re-          behavior and detection of undisclosed potential conflicts of interest are effective.
sponse to a request from Congress-        Forty-six percent of respondents said they were confident that current
men Barney Frank and John F. Tier-        procedures detected and prevented conflicts of interest, and 14 percent were
ney to review fisheries management        not confident. Similarly, 47 percent were confident that procedures detected and
at NMFS and at the eight regional         prevented code of conduct violations, and 8 percent were not confident.
FMCs.
  DEPARTMENT OF COMMERCE
U.S.                                                                                                                 OFFICE OF INSPECTOR GENERAL


Contents 

Introduction .......................................................................................................................................................1
 
Survey Results ...................................................................................................................................................3
 
   Interactions with NMFS ..............................................................................................................................3
 
   Regulatory Requirements ...........................................................................................................................5
 
   Interactions with the Fishing Industry and Nongovernment Organizations ....................................7
 
   Fishery Management Council Operations and Training .......................................................................9
 
   Rules of Conduct, Conflict of Interest, and Ethics............................................................................. 12
 
   Other Comments and Suggestions........................................................................................................ 13
 
Appendix A: Survey Methodology and Response Rates ....................................................................... 15
 




                                                                                                                        COVER: Detail of fisheries pediment, 
                                                                                                           U.S. Department of Commerce headquarters,
 
                                                                                                                   by sculptor James Earle Fraser, 1934
 




FINAL REPORT NO. OIG-13-022-I
  DEPARTMENT OF COMMERCE
U.S.                                                                                           OFFICE OF INSPECTOR GENERAL


Introduction 

This report contains the results of OIG's online survey of Fishery Management Council (FMC)
members and staff. The purpose of the survey was to obtain an FMC perspective on fishery
regulatory requirements, rulemaking, and improvements in fisheries management. We sent the
survey to 292 FMC members, member designees, and staff. As described in appendix A, 79
percent of survey recipients (235 persons) responded. Appendix A also contains the scope and
methodology of this phase of the review and the survey response rates for each FMC.

This is our second report in response to a request from Congressmen Barney Frank and John
F. Tierney1 to review fisheries management at NOAA’s National Marine Fisheries Service
(NMFS) and at the eight regional FMCs.

Figure 1. Fisheries Management                                        NMFS is responsible for the management and
Partners                                                              conservation of living marine resources within the
                                                                      statutorily prescribed areas in the U.S. Exclusive
                                                                      Economic Zone (EEZ)—the area extending from 3
                                 Other 
                                Federal 
                                                                      to 200 nautical miles offshore. NMFS provides
                                Agencies                              scientific and policy leadership in the international
                                                                      arena and plays a key role in the management of
      Other 
                                                                      living marine resources while implementing science-
     Stake‐                                                    FMCs   based conservation and management actions aimed
     holders
                              Fisheries                               at sustaining long-term use and promoting the health
                             Management                               of coastal and marine ecosystems. Within this
                                                                      context, NMFS and FMCs work together to develop
                                                                      fisheries management strategies and rules for the
                                                  State
                                                                      commercial and recreational fishing industries.
                NMFS
                                                 Agencies

                                                                      In the fisheries management process, FMCs partner
                                                                      with NMFS, state agencies, and other federal
                                                                      agencies (as shown in figure 1).

FMCs allow for regional, participatory governance by knowledgeable people with a stake in
fisheries management. FMCs prepare, monitor, and revise fishery management plans (FMPs) and
data collection programs for domestic and foreign fishing within the EEZ. This is done with
approval and implementation by the Commerce Secretary, who has stewardship responsibility
for living marine resources in the EEZ under the Magnuson-Stevens Fishery Conservation and
Management Act (MSA).2




                                                            
1
   August 17, 2011, letter from Congressmen Barney Frank and John F. Tierney to the Department of Commerce 

Inspector General.
 
2
   16 U.S.C. § 1801 et seq.
 


FINAL REPORT NO. OIG-13-022-I                                                                                             1
  DEPARTMENT OF COMMERCE
U.S.                                                                                         OFFICE OF INSPECTOR GENERAL

For the 5-year period from January 2010 to            Figure 2. FMC Funding from NOAA
December 2014, NOAA awarded nearly $100 million
in grants and cooperative agreements to the FMCs             Western    Caribbean Gulf of
(see figure 2). The funding covers operating expenses         Pacific      6%     Mexico
                                                               21%
such as staff salaries, office space, public meeting                               11%
costs, travel, and compensation to eligible FMC                                           Mid-
           3                                                                             Atlantic
members.                                               South
                                                                                          11%
                                                                                  Atlantic
                                                                                   12%
In addition to the resources provided to FMCs for                                               New
operations, FMCs can apply for other NOAA-funded               Pacific
                                                                                               England
                                                                                                12%
grants and cooperative agreements. For instance, for            14%                 North
the period spanning from 2010 to 2014, NOAA                                         Pacific
                                                                                     13%
awarded the Western Pacific FMC seven grants and
agreements in addition to its cooperative agreement       Source: OIG analysis of data from NOAA’s
for operations. The largest covers expenses related       Grants Online system
to conservation and management efforts to address
fisheries interactions with protected species. Another helps implement projects to provide
relief to Hawaiian fishermen whose annual bigeye tuna quotas are not sufficient to meet market
demand and provides technical assistance to American Samoa as it develops a bigeye tuna
fishery.

Figure 3. FMC Members and Staff
                                                                       FMCs and NMFS manage 46 FMPs. NMFS
                                                                       regional offices, NMFS components, and FMCs
    Members
                                                                       actively participate in the early stages of
      46%                                                      Staff   fisheries management actions (frontload4
                                                               40%
                                                                       development), as well as the continued analysis,
                                                                       evaluation, and implementation of these actions.
                                                                       Deliverables from these efforts include FMPs,
                                                                       FMP amendments, proposed and final rules,
                                                                       annual harvest specifications, and in-season
          Member                                                       management actions. NMFS also assists in the
          Designees                                                    development, review, and implementation of
            14%
                                                                       FMC-proposed actions. As shown in figure 3,
 Source: OIG analysis of information on FMC web
 sites




                                                            
3
  Each FMC has voting and nonvoting members. Voting members who are appointed by the Commerce Secretary
and not employed by federal, state, or local government receive compensation for time spent at meetings and
when officially representing the FMC or conducting official business of the FMC. The MSA established 114 voting
members on the eight FMCs: the NMFS regional administrators, state marine fisheries management officials, and
individuals appointed by the Commerce Secretary. 
4 Frontloading refers to active participation of FMCs and key NMFS staff (e.g., Sustainable Fisheries, Protected

Resources, and Habitat Conservation divisions, as well as economists, social scientists, and legal counsel) at the
early stages of fisheries management action development. The goal is to ensure that to the extent practicable, all
significant legal and policy issues will be identified early in the process. 


FINAL REPORT NO. OIG-13-022-I                                                                                             2
  DEPARTMENT OF COMMERCE
U.S.                                                                               OFFICE OF INSPECTOR GENERAL

the approximately 295 positions at the eight FMCs include staff, members, and member
designees.5


Survey Results
This section of the report contains respondents’ answers to direct questions in the survey and
summaries of their responses to questions requiring a written explanation. We did not conduct
follow-up interviews or detailed analyses of their answers.

Interactions with NMFS

The first of five topics in the survey asked FMC members and staff to describe the effectiveness
and frequency of verbal and written communications with NMFS,6 covered fishery management
planning activities, and assessed whether respondents are satisfied with NOAA’s replies to FMC
inquiries on fisheries management and rulemaking. We asked four direct questions and allowed
respondents to describe their ideas to improve interactions with NMFS.

              Questions and responses

              1.	 How would you rate the written guidance (including resources that are available
                  online) that NMFS provides to FMCs for the development of fishery management
                  actions?

                        Answer Options                         Response Rate (%)
                        Effective                                     43
                        Neutral                                       39
                        Ineffective                                    6
                        Don’t Know                                    12

              2. How often do you directly communicate with NMFS employee(s) or office(s)?

                        Answer Options                         Response Rate (%)
                        One or more times each week                   38
                        One or two times each month                   35
                        One time each quarter                         16
                        Less than one time each quarter               11
                                                            
5
   The MSA allows state officials, federal officials, and the Indian Tribal representative on the Pacific FMC (all of
which are voting FMC members) to designate an alternate to sit in his or her place on an FMC. 16 U.S.C. §
1852(b)(1)(A)-(B), (b)(5)(D). Requirements for FMC designees for voting members are codified in implementing
regulations at 50 C.F.R. §§ 600.205 and 600.207. Nonvoting members representing the U.S. Coast Guard,
Department of State, and the Marine Fisheries Commissions may also designate an alternate, although they are not
required to do so by the MSA. Designees have knowledge about fishery management actions and understand the
responsibilities of an FMC member.
6
   In this report, NMFS includes NMFS headquarters in Silver Spring, Maryland, six regional offices, six science
centers, and the NOAA Office of the General Counsel.


FINAL REPORT NO. OIG-13-022-I                                                                                       3
  DEPARTMENT OF COMMERCE
U.S.                                                                   OFFICE OF INSPECTOR GENERAL

         3. When you have questions about FMP development or amendments or rule
            development, how satisfied are you with the response you receive from NMFS?

              Answer Options         Response Rate (%)
              Usually satisfied             70
              Rarely satisfied              12
              Never satisfied               0
              No interactions               18

         4.	 In your region how effective is preplanning, frontloading (early review of draft
             documents to ensure that significant legal and policy issues are identified and
             managed, to the extent practicable), and balancing workload?

              Answer Options        Response Rate (%)
              Effective                    39
              Neutral                      31
              Ineffective                  15
              Don’t know                   15

         Improving interactions between NMFS and FMCs

         NMFS regional offices coordinate directly with their FMCs to assign and manage
         responsibilities related to fisheries actions. Because region–Council pairs are unique in
         terms of the fisheries managed and the number of FMCs working with an NMFS regional
         office, specific approaches to planning and prioritizing work vary. Although NMFS
         regional offices have autonomy in working with the FMCs in their region, given the
         complexity of some of the documents that FMCs and NMFS prepare and the long
         timelines involved in developing and implementing fishery regulations, there is commonly
         room to improve communications. Therefore, we asked respondents to “describe ideas
         that you have for improving interactions and communication with NMFS headquarters,
         regional offices, science centers, and NOAA Office of the General Counsel (GC) as it
         relates to development and implementation of fishery management actions and
         regulations.” Sixty-one percent of the respondents’ comments fit into three broad
         categories.

 




FINAL REPORT NO. OIG-13-022-I                                                                    4
  DEPARTMENT OF COMMERCE
U.S.                                                                               OFFICE OF INSPECTOR GENERAL

Collaboration Between NMFS and FMCs
                                                                      Percentage Whose
                                                                    Response Fits into This
                  Response Category                                       Category
    Change the occurrence and methods of
    communication between NMFS and the FMCs                                   37
    More participation from NOAA GC                                           13
    Improve outreach and transparency to
    stakeholders                                                              11

The rest of the responses we received to this question were dissimilar and scattered across
many categories. Consequently, fewer than 10 percent of the comments fit into these
categories: Greater involvement early on from NMFS headquarters; More consistent
participation and help from NMFS in preparing documents; Simplify and increase FMC access to
NOAA libraries and data; and Improve coordination with states (e.g., NMFS actively reaching
out to the states and others to seek more grassroots understanding and input when dealing
with quota monitoring and updates to landings data7).

Regulatory Requirements

The second topic in the survey focused on respondents’ views on compliance with the
regulatory requirements of the MSA and the top challenges that the regional FMCs and NMFS
face in managing fisheries in compliance with the legislative mandate.

              Questions and responses

              1.	 How effective is your FMC when it comes to meeting the requirements of the MSA
                  national standards?8

                        Answer Options                         Response Rate (%)
                        Effective                                     72
                        Neutral                                       17
                        Ineffective                                    3
                        Don’t know                                     8
 




                                                            
7 Landings data is information on the amount of fish caught and landed per year. 

8
  The national standards are statutory principles described in the MSA that must be followed when developing, 

amending, and implementing FMPs. 



FINAL REPORT NO. OIG-13-022-I                                                                                     5
  DEPARTMENT OF COMMERCE
U.S.                                                                  OFFICE OF INSPECTOR GENERAL

         2. How effective are your NMFS Regional Office and your Science Center when it
            comes to meeting the requirements of the MSA national standards?

              Answer Options                      Response Rate (%)
              Effective                                  53
              Neutral                                    28
              Ineffective                                 6
              Don’t know                                 13

         3. In your region, what are the top three problems in the fishery management plan
            development and amendment processes?

              Answer Options                      Response Rate (%)
              Complexity of the process                  67
              Timeliness                                 44
              Public distrust                            36
              Inadequate staff/resources                 35
              Unreliable scientific information          33
              Other                                      32
              Excessive external influence
                                                         17
              from industry
              Redundancy                                 12
              Poor management in general                 3

         In the Other category, respondents could explain in their own words the top problems
         in the FMP development and amendment processes. Twenty-five respondents
         mentioned that insufficient (and limitations of the) data are a significant issue. Their
         concern extended beyond the science relating to species and stock assessments. Some
         respondents pointed out an absence of adequate social, economic, and landings
         information, which affects fisheries management and decision making. Respondents
         emphasized that the information is not necessarily unreliable but in some instances is
         unavailable or incomplete. Among this group, the consensus was that NOAA should
         greatly improve the quality, quantity, and timeliness of data.

         The remainder of the comments in the Other category included criticisms of the
         makeup and composition of the FMCs, intrusion (from NOAA and advocacy groups)
         into FMC decision making, and insufficient coordination and workload planning between
         NOAA and the FMCs. An example shared by one respondent was an inability to set
         (and stick to) priorities while taking into account the realities of limited staff and
         resources.

 




FINAL REPORT NO. OIG-13-022-I                                                                       6
  DEPARTMENT OF COMMERCE
U.S.                                                                  OFFICE OF INSPECTOR GENERAL

         4. To what extent are the economic and social impacts of fishing regulations given
            adequate consideration in the fishery management and decision-making processes?

              Answer Options                         Response Rate (%)
              To a great extent                              35
              Somewhat                                       34
              To a small extent                              18
              Not at all                                      3
              Don’t know                                     10

         5. In your region are all sectors (such as commercial and recreational interests) fairly
            represented on the Council?

              Answer Options                          Response Rate (%)
              Yes                                            74
              No                                             16
              Don’t know                                     10

         FMC member and staff ideas for improving FMP and rulemaking processes

         We asked respondents, “If you could make any changes you saw fit, what modifications
         would you make to improve the FMP development, amendment, or rulemaking
         processes?” Of the 168 FMC members and staff who answered the question, the
         responses fell into seven categories, which we list in the table below.

Suggested Changes to FMP Development, Amendment, or Rulemaking Processes
                                                                   Percentage Whose Response
                      Response Category                               Fits into This Category
Streamline the process                                                          38
Improve the quality of the data                                                 17
Change the management philosophy                                                14
Increase funding, staffing levels, and define job duties                        11
Improve communication                                                           10
Increase transparency, simplify language in documents, and
other comments (such as define the meaning of best
                                                                                 9
available data, implement a complaint hotline, improve the
quality of legal advice, and improve training)
No changes necessary                                                             1

Interactions with the Fishing Industry and Nongovernment Organizations

Questions in the third section of the survey focused on communication between the FMCs and
advocacy groups that have a stake in the fisheries management process and the resulting
regulations.




FINAL REPORT NO. OIG-13-022-I                                                                       7
  DEPARTMENT OF COMMERCE
U.S.                                                                  OFFICE OF INSPECTOR GENERAL

         Questions and responses

         1.	 How effective is your region in reaching out to and encouraging public participation
             and input in the development and amendment of fishery management actions?

              Answer Options       Response Rate (%)
              Effective                   68
              Neutral                     22
              Ineffective                  7
              Don’t know                  3

         2. To what extent does the FMC consider public comments when developing fishery
            management actions?

              Answer Options       Response Rate (%)
              Always                      76
              Sometimes                   17
              Never                        2
              Don’t know                   5

         3. To what extent does input from fishing groups influence the fishery management and
            decision-making process?

              Answer Options       Response Rate (%)
              To a great extent           34
              Somewhat                    55
              Not at all                    1
              Don’t know                  10

         4. To what extent does input from environmental advocacy groups influence the
            fishery management and decision-making process?

              Answer Options       Response Rate (%)
              To a great extent           25
              Somewhat                    61
              Not at all                   3
              Don’t know                  11




FINAL REPORT NO. OIG-13-022-I                                                                       8
  DEPARTMENT OF COMMERCE
U.S.                                                                        OFFICE OF INSPECTOR GENERAL

         Improving the relationship between FMCs and stakeholders

         When given the chance to describe suggestions to improve the relationship among the
         FMCs, the fishing industry, and other stakeholders, respondents’ comments fit into the
         categories listed in the table below.

Suggestions to Improve the Relationship Among FMCs, the Fishing Industry, and Other
Stakeholders
                                                                      Percentage Whose Response
                      Response Category                                  Fits into This Category
More meaningful engagement and outreach (specifically
two-way, informal, and community-specific interactions)                              46
Improved science (by providing more funding, give science
a higher priority, and increase use of socioeconomic
information and science from external sources)                                       14
 Improve accessibility to FMC meetings (in terms of
 location and increased use of online access to meetings,
 such as webinars)
                                                                                      8
Other (includes bringing stakeholders into the scoping and
planning processes earlier, a decreasing external influences,
simplifying the regulations, increasing FMC flexibility in
response to changing external factors such as economic
conditions and public input, and using advisory panels more
effectively)                                                                         32
a
This suggestion predominately comes from the four FMCs on the East Coast: New England, Mid-Atlantic, South
Atlantic, and Gulf of Mexico.

Fishery Management Council Operations and Training

The fourth topic in the survey asked respondents to evaluate whether the training and guidance
they receive are effective and prepare them to accomplish their work. For FMC members and
member designees in particular, the questions in this part of the survey were intended to
evaluate whether NMFS provides the information that they need to make informed decisions.

 




FINAL REPORT NO. OIG-13-022-I                                                                                9
  DEPARTMENT OF COMMERCE
U.S.                                                                                     OFFICE OF INSPECTOR GENERAL

              Questions and responses

              1. Rate the effectiveness of the NOAA Fisheries regulatory training program.9

                        Answer Options                         Response Rate (%)
                        Effective                                      19
                        Neutral                                        25
                        Ineffective                                     4
                        Don’t know                                     52

              2. How effective was the training you received when you joined the Council or became
                 a Council staff member?

                        Answer Options                         Response Rate (%)
                        Effective                                     29
                        Neutral                                       43
                        Ineffective                                    8
                        Don’t know                                    20

              3. Have you received training on your Council’s Standard Operating Policies and
                 Procedures10?

                        Answer Options                         Response Rate (%)
                        Yes                                           52
                        No                                            42
                        Don’t know                                     6

              4. How often have you attended presentations or training hosted by organizations
                 other than your regional Council or NMFS?

                        Answer Options                                             Response Rate (%)
                        Monthly                                                             2
                        Quarterly                                                           8
                        Once or twice each year                                            50
                        I have not attended presentations or training                      40



                                                            
9
  The MSA has a training requirement for newly appointed FMC members. 16 U.S.C. § 1852(k). The mandatory
training course is available to existing FMC members and staff as well as staff from NMFS regional offices and
regional science centers. Generally FMC staff attend the training as resources allow. To ensure new members
satisfy the training requirement, the NMFS Office of Sustainable Fisheries Regulatory Services Division tracks
attendance. If newly appointed FMC members cannot attend the first training, they are invited to complete their
training the next year.
10 This question refers to the requirement stated at 16 U.S.C § 1852(f)(6) that each Council shall determine its

organization, and prescribe its practices and procedures for carrying out its functions under this Act, in accordance
with such uniform standards as are prescribed by the Secretary. Each Council shall publish and make available to
the public a statement of its organization, practices, and procedures. 


FINAL REPORT NO. OIG-13-022-I                                                                                      10
  DEPARTMENT OF COMMERCE
U.S.                                                                  OFFICE OF INSPECTOR GENERAL

         Guidance to FMC members and staff

         Eighty-one FMC members and staff provided a reply to our request that they “describe
         information you have about Council operations or fishery management processes that
         would have been helpful or advantageous to have known earlier.” Many of the responses
         are unique, and the table that follows puts the comments we received into broad
         categories.

Information That Would Have Been Helpful Earlier

                                                              Percentage Whose Response Fits
                Response Category                                   into This Category
Knowledge of the MSA; information on fishing
regulations, FMC operating procedures, and NEPA                             46
Various statements about the MSA and the
respondent’s region; further explained their
response to other questions in the survey                                   28
Time-consuming nature of the FMC and complexity
of the FMP amendment process                                                14
Better understanding of roles and responsibilities of
NMFS and FMCs                                                               10

Shortcomings of OIG survey and other data                                    2

         Successful practices at FMCs

         We asked the survey respondents to tell us what their FMC does well, which other
         FMCs should consider implementing. Six of the eight FMCs indicated that in their region,
         public participation, consideration of public input, and outreach and public education are
         strengths. Additionally, about half of the FMCs identified other areas in which they
         perceived that they have done well.

 




FINAL REPORT NO. OIG-13-022-I                                                                    11
  DEPARTMENT OF COMMERCE
U.S.                                                                                       OFFICE OF INSPECTOR GENERAL

Areas Where the FMCs Are Doing Well
      Region                                                                Summary of Comments
                                                  Cited the Marine Resource Education Programa as an accomplishment
    New England                                   that other FMCs could follow
                                                  Noted the value it has gained from visioning, risk assessment, and
    Mid-Atlantic                                  strategic planning activities
                                                  Referred to informal public meetings such as question-and-answer
                                                  sessions with the NMFS regional administrator, which are held after
    South Atlantic and                            Council meetings and suggested that these and other nonadversarial
    Gulf of Mexico                                interactions engage the public and improve relationships
                                                  Recommended posting documents on the FMCs’ website to ensure
    Pacific                                       that relevant information is accessible and easily located
                                                  Advocated understanding local culture and using that knowledge to
    Western Pacific                               accommodate and educate the regulated public
                                                  Identified use of interdisciplinary planning teams (IPTs)b as an
    Southeast                                     approach to strategic planning that works well
a
 The Marine Resource Education Program is a professional development program that brings fishermen, scientists, 

and managers together in a neutral setting, providing an opportunity to explore both differences and common 

goals outside of the regulatory forum.

b
  IPTs are formed as needed to address fisheries management actions. They include staff from NMFS headquarters, 

the Southeast Regional Office, the Southeast Fisheries Science Center, NOAA’s Office of Law Enforcement, 

NOAA GC, and FMC partners. An IPT scoping document covers all assigned roles, tasks, and deadlines to be 

accomplished. While IPTs are not new conceptually, their use is currently limited to the Gulf of Mexico and 

Caribbean FMCs. Benefits of IPTs include accountability, timeliness of input from internal stakeholders, and 

increased ability to identify and address concerns earlier in the process.


Rules of Conduct, Conflict of Interest, and Ethics

The fifth section of the survey asked respondents to share their opinion on compliance with the
rules of conduct and whether practices relating to ethical behavior and detection of undisclosed
potential conflicts of interest are effective. The Department of Commerce Ethics Law and
Programs Division, Office of the Assistant General Counsel for Administration has issued
written Rules of Conduct for Members of FMCs11 (and a separate document addressing the
Rules of Conduct for Staff and Advisors of FMC12). The documents emphasize the importance
of maintaining a high standard of conduct to ensure public confidence in the actions of the
FMCs. To meet the financial disclosure requirements stated in the MSA13, NOAA asks that the
voting council members and council member nominees disclose financial interests on a
Statement of Financial Interests form.




                                                            
11
    The document covers the specific rules that apply to each type of FMC member–public member, Federal official 

and state government official.
 
12
    The document summarizes the statutory and regulatory conduct rules that apply to FMC staff. FMC staffs are 

subject to ethics regulations issued by NOAA for all FMC employees.
 
13
    16 U.S.C. § 1852(j)(2)
 


FINAL REPORT NO. OIG-13-022-I                                                                                       12
  DEPARTMENT OF COMMERCE
U.S.                                                               OFFICE OF INSPECTOR GENERAL

         Questions and responses

         1.	 How confident are you that the current procedures and practices detect and
             prevent potential conflicts of interest?

              Answer Options        Response Rate (%)
              Confident                     46
              Somewhat confident            29
              Not confident                 14
              Don’t know                    11

         2. How confident are you that the current procedures and practices detect and
            prevent code of conduct violations?

              Answer Options        Response Rate (%)
              Confident                    47
              Somewhat confident           29
              Not confident                  8
              Don’t know                   16

         3. Generally how ethical do you perceive your Council to be?

              Answer Options       Response Rate (%)
              Always ethical              76
              Sometimes ethical           22
              Rarely ethical               2


Other Comments and Suggestions

We reserved space at the end of the survey for respondents to write about any topic or issue
that they consider important that we did not include in the questionnaire. We received 72
comments that were responsive to the request, and the statements we received varied, without
a majority of respondents commenting on a specific area. In some instances, the FMC member
or staff wrote about a topic that was covered in the questionnaire. The table below lists the
categories of responses we received.



 




FINAL REPORT NO. OIG-13-022-I                                                              13
  DEPARTMENT OF COMMERCE
U.S.                                                              OFFICE OF INSPECTOR GENERAL

Topics Not Included in Questionnaire
                                                                   Percentage of the
                                                                Comments That Fit in This
                        Response Category                              Category
Various statements from respondents (such as better policy
for working with nongovernment organizations, increase
efforts to get local buy-in and ownership in the process, and
improve credibility by reaching out to state and local
partners more)                                                            36
Perceptions of bias in the FMP development and rulemaking
processes                                                                 20
Improvements and features of scientific information and the
design of catch share programs                                            15
Funding, adequacy of resources                                            8
Various statements on the features of regional oversight and
distribution of work between FMCs and NMFS                                8
Clarity on conflict of interest and ethics                                7
Various comments on issues related to MSA and national
standards                                                                 4
Handling litigation and responses to Freedom of Information
Act (FOIA) requests                                                       2




FINAL REPORT NO. OIG-13-022-I                                                               14
  DEPARTMENT OF COMMERCE
U.S.                                                                                   OFFICE OF INSPECTOR GENERAL


Appendix A: Survey Methodology and
Response Rates
This report is based on an online survey of the staff and members at the eight regional FMCs.
We sent the survey to 292 persons, comprising all FMC staff, members, and member designees.
Our questions covered the following general areas: respondent information and background,
interactions with NMFS, regulatory requirements, interactions with the fishing industry and
nongovernment organizations, FMC operations and training, and code of conduct/ethics.

To ensure that the survey questions were well-written, we asked two knowledgeable
employees at the NMFS Northwest Regional Office Sustainable Fisheries Division and our in-
house subject matter expert to read the survey, identify questions that lacked clarity, and
provide suggestions for improvement. We modified the survey to minimize question bias and to
ensure it contained the most relevant information. We used SurveyMonkey to conduct the
survey and sent e-mails to FMC staff, members, and member designees, so that they could
access the survey. Respondents had 2 weeks to complete the survey.

When the survey ended on June 27, 2012, 79 percent of FMC staff, members, and member
designees had responded. Table 1 summarizes response rates by FMC/region.

Table 1. Survey Response Rate by FMC/Region
                                                                            Response
        FMC/Region                             Responses       Population
                                                                            Rate (%)
    Caribbean                                         14          22           64
    Gulf of Mexico                                    35          44           80
    Mid-Atlantic                                       32          40          80
    New England                                       38          43           88
    North Pacific                                      22          28          79
    Pacifica                                          33          52           63
    South Atlantic                                     32          33          97
    Western Pacific                                   25          33           76
    Subtotal                                          231         295          —
    Multiple regions                                   4           4           —
     Total                                            235         299          79
a
    When we closed the survey, the Pacific region had an FMC meeting coming up,
    which may explain their lower response rate.

Four of the respondents are officially members or member designees for two or more FMCs.
For these respondents, we created the separate category Multiple regions. This expansion
increased the regional population count by seven.14


                                                            
14
   We derived the count of seven as follows: Survey respondents included two NOAA employees who participate
in three FMCs (causing a duplication of four), one NOAA employee who participates in two FMCs (causing a
duplication of one), and one Atlantic States Marine Fisheries Commission employee participates in three FMCs
(causing a duplication of two).


FINAL REPORT NO. OIG-13-022-I                                                                                  15
  DEPARTMENT OF COMMERCE
U.S.                                                                OFFICE OF INSPECTOR GENERAL

In total, 18 respondents indicated that they work with        Figure 4. Survey Respondents by
more than one regional FMC: 14 FMC members, 2 FMC             Employer or Section Represented
member designees, and 2 FMC staff. However, 14 of
them are not officially assigned to multiple FMCs, so we
associated those 14 responses with their official FMC.                           7%
                                                                           21%        8%
Of those who did not reply to the survey, some were on
leave or special assignment. Some began but did not                   9%
complete the survey, possibly because their specific job as
FMC staff or their short tenure in their current position                             36%
                                                                           19%
left them feeling that they could not adequately and
objectively respond to the questions.

Respondents are affiliated with advocacy groups or
government and represent various sectors of the fishing
industry. Figure 4 summarizes respondents by the sector
represented or other affiliation. Table 2 summarizes
respondents by the position held at the FMCs.

We conducted this review under the authority of the
Inspector General Act of 1978, as amended, and Department Organization Order 10-13, dated
August 31, 2006, as amended. We conducted the review in accordance with the Quality
Standards for Inspection and Evaluation (January 2011), issued by the Council of Inspectors
General on Integrity and Efficiency.

                       Table 2. Survey Response Rate by Respondent Position
                                            Response                Response
                   Respondent Position                  Population
                                             Count                   Rate (%)
                  FMC member                    94         132           71
                  FMC member designee           29          46           63
                  FMC staff                    112         121           93
                  Total                        235         299           79




011200000138


FINAL REPORT NO. OIG-13-022-I                                                               16
